la

APPENDIX A - ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT,
FILED MAY 4,2020
United States Court of Appeals for the Sixth
Circuit
UKPAI I. UKPAI, Plaintiff-Appellant,
v.
CONTINENTAL AUTOMOTIVE SYSTEMS US,
INC.,
Defendant- Appellee
No. 19-1463
May 4, 2020
UKPAI I. UKPAI, Plaintiff - Appellant, Pro se.
Steven Z. Cohen, Kevin B. Hirsch, Cohen, Lerner &
Rabinovitz, Royal Oak, MI for Defendant —
Appellee.
Petition for rehearing en banc at the United States
Court of Appeals for the Sixth Circuit.
Before: COOK and THAPAR, Circuit Judges;
HOOD, District Judge*
The court received a petition for rehearing en
* The Honorable Joseph M. Hood, United States District
Judge for the Eastern District of Kentucky, sitting by
designation

2a
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised
in the petition were fully considered upon the
original submission and decision of the case. The
petition then was circulated to the full court. No
judge has requested a vote on the suggestion for
rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT
/s/Deborah S. Hunt, Clerk

3a
APPENDIX B - ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT,
FILED FEBRUARY 18,2020
United States Court of Appeals for the Sixth
Circuit
UKPAI I. UKPAI, Plaintiff-Appellant,
v.
CONTINENTAL AUTOMOTIVE SYSTEMS US,
INC.,
Defendant- Appellee
No. 19-1463
February 18, 2020
UKPAI I. UKPAI, Plaintiff - Appellant, Pro se.
Steven Z. Cohen, Kevin B. Hirsch, Cohen, Lerner &
Rabinovitz, Royal Oak, MI for Defendant —
Appellee.
Appeal from the United States District Court for
the Eastern District of Michigan.
Before^ COOK and THAPAR, Circuit Judges;
HOOD, District Judget
Ukpai I. Ukpai, a Michigan resident proceeding
t The Honorable Joseph M. Hood, United States District
Judge for the Eastern District of Kentucky, sitting by
designation

4a
pro se, appeals the district court's grant of
summary judgment in favor of Continental
Automotive Systems US, Inc. ("Continental") in his
employment discrimination case, filed pursuant to
Title VII of the Civil Rights Act of1964, 42 U.S.C. §
2000e, et seq. This case has been referred to a
panel of the court that, upon examination,
unanimously agrees that oral argument is not
needed. See Fed. R. App. P. 34(a).
In July 2017, Ukpai filed a complaint against
Continental. He later filed a second amended
complaint, which superseded all previously filed
complaints. In his second amended complaint,
Ukpai alleged that he worked for Continental in
Auburn Hills, Michigan for approximately two
years,
until
Continental
terminated
his
employment in January 2016. In October 2015,
Continental had assigned him to work on a
temporary project inspecting pumps at "KCAP," a
Ford Motor Company assembly plant in Kansas
City, Missouri. The project was expected to last
through December 2015 or January 2016. Ukpai
alleged that Dawayne Gilley, Continental's
resident staff member at KCAP and Ukpai's
temporary supervisor, harassed and discriminated
against him. Ukpai alleged that he informed his
managers of Gilley's behavior, but they did nothing.
According to Ukpai, Continental terminated his
employment on January 6, 2016. His supervisor,
Andrew Bayley, and Human Resources Manager
Jaime Fisk told him that he was being fired
because members of the United Automobile,

5a
Aerospace, and Agricultural Implement Workers of
America ("UAW") had filed multiple grievances
against him at KCAP and he had been banned from
the plant. Ukpai stated that he was never told who
filed the grievances or why they were filed. Based
on these facts, Ukpai set forth seven claims for
relief (l) wrongful termination of employment
(discrimination); (2) "unequal terms and conditions
of employment"
(disparate treatment);
(3)
retaliation;
(4)
harassment
(hostile
work
environment); (5) negligence; (6) breach of an
implied employment contract; and (7) denial of due
process. Ukpai sought lost income, wages, and
benefits,' the reinstatement of his employment; and
punitive damages. Continental filed a motion for
summary judgment, which the district court
granted.
On appeal, Ukpai argues that the district court
erred by granting summary judgment on his
discrimination, disparate treatment, hostile-workenvironment, and retaliation claims. Because
Ukpai's appellate brief does not address his
negligence, breach-oficontract, and due-process
claims, Ukpai has abandoned those claims. See
United States v. Johnson, 440 F.3d 832, 845-46
(6th Cir. 2006). Ukpai also argues that the district
court abused its discretion by denying his motion to
compel discovery from Ford, allowing him to
conduct only four additional depositions when it
extended the discovery cut-off date, and denying
his motion to reopen discovery for ninety days and

6a

amend his response to Continental's motion for
summary judgment.
We review de novo a district court's grant of
summary judgment. Latits v. Phillips, 878 F.3d
541, 547 (6th Cir. 2017). "Summary judgment is
appropriate if the materials in the record," when
viewed in the light most favorable to the non­
moving party, "show that there is no genuine issue
as to any material fact and the movant is entitled
to judgment as a matter of law." Id.
I. Discrimination and Disparate Treatment
Although none of Ukpai's seven claims
expressly alleged a violation of Title VII, his
"wrongful-termination" claim is construed as a
Title VII discrimination claim. Ukpai cited Title
VII as the basis for the district court's jurisdiction,
and when asked during his deposition about the
basis for his first claim, Ukpai responded that
"[wlrongful
termination
is
part
of the
discrimination claim" and that Continental
discriminated against him on the basis of his race
and national origin. He also cited Title VII as the
basis for this claim when responding to
Continental's motion for summary judgment.1
1 Ukpai also cited Michigan's Elliot-Larsen Act, Mich. Comp.
Laws § 37.2101, et seq., in his response to Continental’s
motion for summary judgment, but that Act requires
plaintiffs to make the same initial prima facie showing that is
required of Title VIIplaintiffs, see Jones v. Ciba-Geigy, Inc.,
No. 96-1573, 1997 U.S. App. LEXIS 27074, 1997 WL 595083,

7a
Title VII prohibits an employer from
discriminating against an individual "with respect
to his compensation, terms, conditions, or
privileges of employment, because of such
individual's race, color, religion, sex, or national
origin." 42 U.S.C. § 2000e-2(a)(l). To establish a
Title VII violation, a plaintiff may rely on direct or
circumstantial evidence. See Chattman v. Toho
Tenax Am., Inc., 686 F3d 339, 346 (6th Cir. 2012).
Where the plaintiff does not base his claim on
direct evidence, his circumstantial evidence is
analyzed under the McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 93 S. Ct. 1817, 36 L. Ed. 2d
668 (1973), burden-shifting framework. See
Chattman, 686 F.3d at 346-47. Under that
framework^ (l) the plaintiff must first establish a
prima facie case of discrimination; (2) the burden
shifts to the defendant to offer a legitimate, nondiscriminatory basis for its actions,' and (3) if the
defendant does so, the burden returns to the
plaintiff to establish that the employer's proffered
reason is a pretext. Id. at 347.
To establish a prima facie case of
discrimination on the basis of race or national
origin, Ukpai had to show that "(l) he was a
member of a protected class, (2) he suffered an
adverse employment action, (3) he was otherwise
qualified for the position, and (4) he was replaced
by someone outside the protected class or treated
differently than a similarly situated, non-protected
at *3 (6th Cir. Sept. 25, 1997) (per curiam).

8a
employee." Deleon v. Kalamazoo Cty. Rd. Comm'n,
739 F3d 914, 918 (6th Cir. 2014). Ukpai, who is
black and a native of Nigeria, is a member of a
protected class. See id.', 42 U.S.C. § 2000e-2(a)(l).
The termination of his employment is an adverse
employment action. See Adair v. Charter Cty. of
Wayne, 452 F. 3d 482, 490 (6th Cir. 2006). There
was also evidence in the record showing that Ukpai
was qualified for the senior-software-engineer
position that he held—he was hired into that
position less than three years before his firing, and
he had received satisfactory job performance
reviews in 2013 and 2014. However, for reasons
discussed below, Ukpai failed to satisfy the fourth
prong of the prima facie analysis.
Ukpai made no showing—nor did he even
allege—that he was replaced by someone of a
different race
or national origin.
Ukpai
alternatively could have satisfied the fourth prong
by showing that he was treated differently than a
similarly situated, non-protected employee. See
Deleon, 739 F.3d at 918. In his response to
Continental's motion for summary judgment,
Ukpai alleged that Gilley, Radim Urban, and
Brandon White were similarly situated. Employees
are similarly situated if they are "similar in all
relevant respects, and [they] . . . engaged in acts of
comparable seriousness." Bobo v. UPS, 665 F.3d
741, 751 (6th Cir. 2012) (citation omitted). Whether
other employees report to a different supervisor
than the plaintiff may be relevant, but that should

v

9a
be determined on a case-by-case basis. See id.
Gilley was not similarly situated to Ukpai because
he was Ukpai's supervisor at KCAP, he did not
perform the pump inspections that Ukpai was
tasked with performing, and the UAW did not file
two grievances based on Gilley's conduct.
Urban and White admittedly present a closer
question,
because
both
were
Continental
employees, both were supervised by Gilley while at
KCAP, and both were tasked with performing the
same pump inspections that Ukpai was expected to
perform. However, there are also significant
differences. First, Urban's permanent place of
employment was a Continental facility in the Czech
Republic, whereas White was based at a
Continental facility in Newport News, Virginia.
The supervisors in Auburn Hills who ultimately
terminated Ukpai's employment did not supervise
Urban or White. While the supervisor issue might
not be determinative, it is still relevant,
particularly where Urban and White worked at
entirely different facilities. Second, Urban left
KCAP after the first UAW grievance was filed, and
Gilley noted that the first grievance was directed at
Ukpai, who had aggravated "hi lo" drivers. Urban
was not present when the second grievance was
filed and was not "thrown out" of the facility. Third,
White was not present when the first UAW
grievance was filed, and the second grievance was
based on Ukpai's performing night-shift inspections
without two UAW workers. Ukpai also produced no

10a
evidence that White was dismissed from the KCAP
facility. Finally, Fisk noted that, during her
investigation of the KCAP incidents, Ukpai
appeared disinterested and untruthful. She also
noted that communication and a confrontational
attitude had been ongoing problems with Ukpai.
Under these circumstances, Ukpai failed to identify
a similarly situated employee who was treated
more favorably. Because Ukpai did not make the
requisite prima facie showing, the district court
properly
granted
summary
judgment
in
Continental's favor on the discrimination claim.
In addition to his wrongful-termination claim,
Ukpai alleged that he was subjected to unequal
terms and conditions of employment based on his
race and national origin. Specifically, he alleged .
that Gilley assigned him to perform pump
inspections during the night shift while allowing
Urban and White to perform inspections during the
day. To make a prima facie showing of disparate
treatment, Ukpai had to show "that (l) he belonged
to a protected class, (2) suffered an adverse
employment action, (3) met the qualifications for
his position, and (4) was treated differently from a
similar employee who does not belong to his
protected class." Hudson v. City of Highland Park,
943 F3d 792, 802 (6th Cir. 2019). As discussed
previously, Ukpai showed that he belonged to a
protected class and that he was qualified for his
position. But the assignment to the night shift does
not constitute an adverse employment action.

11a

Ukpai was on a temporary assignment at KCAP,
and he admitted that he worked only two night
shifts. "[C]ases where the employment action, while
perhaps being materially adverse if permanent, is
very temporary ... do not constitute materially
adverse employment actions." Bowman v. Shawnee
State Univ., 220 F 3d 456, 462 (6th Cir. 2000). And
"[a] 'mere inconvenience . . .'is not enough to
constitute an adverse employment action." Deleon,
739 F. 3d at 918 (quoting White v. Burlington N. &
Santa Fe Ry. Co., 364 F. 3d 789, 797 (6th Cir. 2004)
(en banc)).
II. Hostile Work Environment
In his fourth claim for relief, Ukpai alleged
that he was harassed. He alleged that Gilley told
him that he should have rented a Ford vehicle,
complained when he parked in the visitor parking
lot, and shouted that he was "doing everything
wrong" when he did not have a safety vest or
goggles. Ukpai also alleged that Gilley took Urban's
and Ukpai's lunch orders one day and, despite
getting Urban what he had requested, purchased
food that Ukpai had not ordered and did not like.
Finally, Ukpai alleged that Gilley made false
statements to Ukpai's managers, which led to the
termination of his employment.
To prevail on a hostile-work-environment
claim, "the plaintiff must show that the work
environment was so pervaded by discrimination
that the terms and conditions of employment were

12a
altered." Vance v. Ball State Univ., 570 U.S. 421,
427, 133 S. Ct. 2434, 186 L. Ed. 2d 565 (2013), see
Barrett v. Whirlpool Corp., 556 F3d 502, 514 (6th
Cir. 2009). Where, as here, a plaintiff relies
on circumstantial evidence to prove his case, "the
McDonnell Douglas burden-shifting framework
applies." Barrett, 556F.3d at 515.
To establish a prima facie case of a racially
hostile work environment, a plaintiff must
demonstrate that (l) Qhe was a member of a
protected class; (2) Qhe was subjected to
unwelcome
racial harassment;
(3)
the
harassment was based on race; (4) the
harassment unreasonably interfered with h[isj
work performance by creating an intimidating,
hostile, or offensive work environment; and (5)
the employer is liable.
Id.
The district court did not err in finding that
Ukpai failed to make the requisite prima facie
showing because there is no evidence in the record
to suggest that any of the alleged harassment was
based on Ukpai's race or national origin. Other
employees who were of different races and national
origins were required to rent Ford vehicles and
bring vests and safety goggles to the plant. There is
also nothing to suggest that Gilley intentionally
brought Ukpai food that he disliked, let alone that
he did so because of Ukpai's race or national origin.
Finally, there is no evidence that Gilley provided
false information to Ukpai's supervisors; to the

13a
contrary, Ford employee Michael Bayer testified
during his deposition that two union grievances
had been filed and that he instructed Gilley to
remove the offending employee from the plant.
Ill Retaliation
In count three, Ukpai alleged that Continental
retaliated against him by sending him to KCAP,
where he was subjected to a hostile work
environment. He also alleged that, on the morning
of January 6, 2016, one of his supervisors in
Auburn Hills, Leon Koua, told him to begin work
on a new project but instructed him not to contact
the customer for any reason. According to Ukpai,
Koua told him that if he needed information from
the customer, he should contact another
Continental employee, who would obtain the
information and relay it to him. According to
Ukpai, this was done in retaliation for his reporting
to human resources the disparate treatment and
harassment that he had faced at KCAP.
To establish a prima facie case of retaliation, a
plaintiff must demonstrate that (l) Ohe
engaged in activity protected by Title VII (2)
the defendant knew of h[is] exercise of h[is]
protected rights! (3) the defendant subsequently
took an adverse employment action against the
plaintiff or subjected the plaintiff to severe or
pervasive [*12] retaliatory harassment! and (4)
there was a causal connection between the
plaintiffs protected activity and the adverse

14a
employment action.
Id. at 516.
Ukpai testified during his deposition that he
informed his supervisors and Fisk about
harassment that he experienced at KCAP.
Although
Fisk
and
Ukpai's
supervisors
contradicted this testimony, the evidence must be
viewed in the light most favorable to Ukpai.
Nevertheless, Ukpai failed to make a prima facie
showing of retaliation. First, sending him to KCAP
could not have been done in retaliation for his later
complaints about harassment that he experienced
at KCAP. Second, Koua's instruction to avoid
contacting a customer directly does not rise to the
level of "severe or pervasive ... harassment." Id.
IV. Discovery
Finally, Ukpai argues that the district court
abused its discretion by (l) denying his motion to
compel discovery from Ford; (2) limiting him to
conducting only four additional depositions when it
extended the discovery cut-off date; and (3) denying
his motion to re-open discovery for ninety days and
his motion to amend his response to Continental's
motion for summary judgment.
We review the district court's discovery
decisions for an abuse of discretion. Hohman v.
Eadie, 894 F. 3d 776, 781 (6th Cir. 2018). "A district
court abuses its discretion when it applies the
incorrect legal standard, misapplies the correct

15a
legal standard, or relies upon clearly erroneous
findings of fact." United States v. Ray, 803 F3d
244, 273 (6th Cir. 2015).
The district court did not abuse its discretion
by denying Ukpai's motion to compel Ford to
produce discovery documents. Ukpai complained
that Ford had not produced the two written UAW
grievances that were filed against him. But, after
holding a hearing, the district court concluded that
no written grievances existed. This finding of fact
was not clearly erroneous. Ford's attorney
explained that Ford had searched for any written
grievances and informed Ukpai in April 2018 that
it "could not locate any written grievance on this
issue." During a deposition, Bayer testified that the
complaints that he received about Ukpai from the
UAW were verbal. Ford's attorney also noted that
he sent Ukpai a copy of Ford's collective-bargaining
agreement with the UAW, which stated that firststep grievances are oral. He also sent Ukpai over
1200 pages of e-mails and attachments sent
between three Ford employees between September
2015 and February 2016—the entire duration of
the Continental pump-inspection project—to show
that there was no mention of written grievances.
Ukpai also moved to extend the discovery
deadline ten days before it expired, stating that he
wished to conduct six or seven additional
depositions. Ukpai contended that he had not
received complete discovery responses and that
Continental's attorney had "put a lot of constraints

16a
on these depositions." Continental, on the other
hand, argued that Ukpai had cancelled Urban's
and Gilley's depositions and that his reasons for
cancelling were not supported by the record.
Ultimately, after weighing the importance of the
witnesses against the prejudice to Continental, the
district court granted Ukpai four additional
depositions and extended the discovery deadline.
Doing so was not an abuse of discretion.
Finally, on March 14, 2019, Ukpai filed a
motion to re-open discovery for ninety days and to
amend his response to Continental's motion for
summary judgment. The motion was based solely
upon the fact that Ukpai had only recently been
able to retain counsel and, until that point, had
been forced to pursue his case pro se. But Ukpai
had no right to an attorney in this civil case, see
Lavado v. Keohane, 992 F.2d 601, 605-06 (6th Cir.
1993), and he had completed numerous depositions
and discovery requests on his own behalf. The mere
fact that Ukpai retained counsel a year and a half
after filing his lawsuit did not justify re-opening
discovery and allowing Ukpai to file a new response
to Continental's motion for summary judgment.
The district court did not abuse its discretion in
denying this motion.
Accordingly, we AFFIRM the district court's
judgment.
ENTERED BY ORDER OF THE COURT
/s/Deborah S. Hunt, Clerk
APPENDIX C - ORDER AND OPINION OF THE

17a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION, FILED MARCH 26, 2019
United States District Court Eastern District of
Michigan Southern Division
UKPAI I. UKPAI, Plaintiff-Appellant,
v.
CONTINENTAL AUTOMOTIVE SYSTEMS US,
INC.,
Defendant
Case No. 17-cv12428
March 26, 2019
UKPAI I. UKPAI, Plaintiff, Pro se.
Steven Z. Cohen, Kevin B. Hirsch, Cohen, Lerner &
Rabinovitz, Royal Oak, MI for Defendant
Appeal from the United States District Court for
the Eastern District of Michigan.
OPINION AND ORDER GRANTING
DEFENDANT’S MOTION FOR
SUMMARY JUDGMENT [#104]
GERSHWIN A. DRAIN, District Judge

I. INTRODUCTION

18a
This
case
involves
an
employment
discrimination dispute. Plaintiff Ukpai I.Ukpai
alleges that Defendant terminated his employment
due to racial and national origin discrimination.
Before the Court is Defendant Continental
Automotive Systems US, Inc.’s (“Continental”)
Motion for Summary Judgment. Dkt. No. 104. For
the reasons discussed below, this Court will grant
Defendant’s Motion.
II. FACTUAL BACKGROUND
Plaintiff Ukpai I. Ukpai is an engineer who
was born in Nigeria. Dkt. No. 120, pg. 8 (Pg. ID
5583). He moved to the United States in 1995 and
has obtained American citizenship while in the
United States. Id. Plaintiff began working for
Defendant Continental in 2013. Dkt. No. 35-1, pg.
11 (Pg. ID 301). In October 2015, Defendant sent
Plaintiff to work at the Kansas City Assembly
Plant (“KCAP”). Id. at pg. 12 (Pg. ID 302). KCAP is
an assembly plant belonging to the Ford Motor
Company. Id. Plaintiffs job involved work on a
project in which he was required to carry out
inspections on hardware that Continental supplied
to Ford. Id. Plaintiff alleges that he was
discriminated against, harassed, and treated
disparately during his time at KCAP. Id. Plaintiff
alleges that he promptly reported these incidents to
management but management neglected to take
action. Id.
In December of 2015, Plaintiffs supervisor

19a
Andrew Bayler and Human Resources Manager
Jaime Fisk informed him that he was banned from
the KCAP plant due to multiple grievances that
had been filed against him. Dkt. No. 35-1, pg. 12
(Pg. ID 302). Defendant terminated Plaintiff on
January 6, 2016. Id. at pg. 13 (Pg. ID 303). Plaintiff
filed a charge with the Equal Employment
Opportunity Commission (“EEOC”) on July 21,
2016. Id. at pg. 32 (Pg. ID 322). The EEOC issued
Plaintiff a Dismissal and Notice of Rights on April
26, 2017, giving Plaintiff 90 days to file suit in
federal court. Id. at pg. 31 (Pg. ID 321).
Plaintiff filed his complaint in this Court on
July 25, 2017. Dkt. No. 1. Plaintiff filed an
amended complaint on December 1, 2017. Dkt. No.
24. On February 1, 2018, Plaintiff moved to file a
second amended complaint. Dkt. No. 35. This Court
referred the motion to Magistrate Judge R. Steven
Whalen on February 13, 2018. Dkt. No. 43.
Magistrate Judge Whalen granted Plaintiffs
motion to file a second amended complaint on
February 15, 2018. Dkt. No. 44. Defendant filed its
Motion for Summary Judgment on October 15,
2018. Dkt. No. 104. Plaintiff filed his initial
response on November 15, 2018. Dkt. No. 108.
Plaintiff then filed a corrected response on
December 29, 2018. Dkt. No. 120. Plaintiff has filed
numerous exhibits in support of his response, as
well as declarations. Dkt. Nos. Ill, 112, 113, 114,
115, 116, 117, 118. Defendant replied on November
27, 2018. Dkt. No. 119. On February 4, 2019,
Plaintiff retained counsel. Dkt. No. 121. On March

20a
14, 2019, Plaintiff, through counsel, moved to
adjourn the hearing on Defendant’s Summary
Judgment Motion and to reopen discovery for 90
days. Dkt. No. 122. Defendant opposed Plaintiffs
motion to adjourn on March 15, 2019, asserting
that it was a delay tactic. Dkt. No. 123. This Court
held oral argument on Defendant’s Motion for
Summary Judgment on March 18, 2019.
III. LEGAL STANDARD
Federal Rule of Civil Procedure 56(c) governs
summary judgment. The Rule states, “summary
judgment shall be granted if ‘there is no genuine
issue as to any material fact and that the moving
party is entitled to a judgment as a matter of law.’”
Cehrs v. Ne. Ohio Alzheimer’s Research Ctr., 155
F.3d 775, 779 (6th Cir. 1998). “All factual
inferences ‘must be viewed in the light most
favorable to the party opposing the motion.’” Id.
(quoting Matsushita Elec. Indus., Co. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986)). There is a
genuine issue of material fact “if the evidence is
such that a reasonable jury could return a verdict
for the nonmoving party.” Id. (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986)).
Ultimately, the court evaluates “whether the
evidence presents a sufficient disagreement to
require submission to a jury or whether it is so one­
sided that one party must prevail as a matter of
law.” Anderson, 477 U.S. at 251-52.

21a
IV. DISCUSSION
1. Wrongful Termination of Employment
The first count of Plaintiffs complaint alleges
wrongful termination. Dkt. No. 35-1, pg. 13 (Pg. ID
303). The complaint states that on January 6, 2016,
Jaime Fisk informed Plaintiff of his termination
due to multiple grievances filed against him. Id. at
pg. 14 (Pg. ID 304). The allegation in Count I does
not allege or state anything further. See id.
Plaintiff states in his response to Defendant’s
Motion that inspections were suspended in
November 2016 because the United Auto Workers
(“UAW’) filed a grievance based on violations of
plant rules. Dkt. No. 120, pg. 12 (Pg. ID 5587).
Plaintiff further states that the narrative of him
being responsible for the first grievance is false. Id.
at pg. 13 (Pg. ID 5588). However, Defendant
acknowledges that both Plaintiff and Radim Urban,
Plaintiffs inspection partner, did not follow all of
the UAW rules. Dkt. No. 104, pg. 21 (Pg. ID 2255).
After the initial grievance, rules at the KCAP plant
became stricter. Id. at pg. 22 (Pg. ID 2256). Two
UAW members were required to be present during
the inspections with Plaintiff. Id. Dawayne Gilley,
Plaintiffs manager, told Plaintiff not to conduct
inspections if no one showed up to do the
inspections with him. Id.', Dkt. No. 104- 2, pg. 32
(Pg. ID 2365). However, Plaintiff had already
conducted the inspections without two union
members present. Id. Mike Bayer, a Ford

22a
representative, was informed of Plaintiffs second
violation. Id. Gilley spoke with Bayer and Bayer
informed Gilley that Plaintiff needed to be
terminated. Id. at pg. 33 (Pg. ID 2366). Gilley was
obligated to follow Ford’s wishes because Ford was
Defendant’s customer. Dkt. No. 104, pg. 23 (Pg. ID
2257).
The record presents testimony that Ford
decided to terminate Plaintiff due to his multiple
violations of the inspection policy. No evidence in
the record refutes this testimony, except for
Plaintiffs subjective allegations. Further, for the
reasons discussed infra, the record does not support
Plaintiffs allegations of discriminatory treatment
as the motivation for his termination. This Court
will therefore grant summary judgment in favor of
Defendant on Count I.
2. Unequal Terms and Conditions of Plaintiffs
Employment Count Two alleges unequal terms
of employment. Dkt. No. 35*1, pg. 14 (Pg. ID 304).
Plaintiff asserts that Dawayne Gilley, the resident
Continental staff at KCAP, required Plaintiff to
work the night shift even after Plaintiff had
seniority over his Caucasian inspection partner,
Brandon White. Id. at pgs. 14—16 (Pg. ID 304-06).
Plaintiffs complaint states that he began
conducting inspections with Radim Urban, a
Caucasian male from the Czech Republic. Id. at pg.
14 (Pg. ID 304). Dawayne Giley assigned Urban to
do the day inspections and Plaintiff to do the night

23a
inspections. Id. Gilley informed Plaintiff that
Urban conducted the day inspections because
Urban had seniority over Plaintiff. Id. Urban then
went back to the Czech Republic, and Defendant
assigned a new employee, Brandon White, to
conduct inspections with Plaintiff. Id. at pg. 16 (Pg.
ID 306). Brandon White is a Caucasian male. Id.
Gilley assigned White to conduct the day
inspections and Plaintiff to conduct the night
inspections, even though Plaintiff had seniority
over White. Id. Plaintiff asked Gilley why he was
not doing the day inspections and Gilley responded
by telling Plaintiff that he (Gilley) was in charge.
Id.
Defendant argues that there was no seniority
between the temporary employees at Continental.
Dkt. No. 104, pg. 12 (Pg. ID 2246); Dkt. No. 104-2,
pg. 27 (Pg. ID 2360). Further, Defendant states
that it was essential for Urban to work the day
shift because of the time difference with the Czech
Republic, where he remained responsible for
operations of a plant. Dkt. No. 104, pg. 12 (Pg. ID
2246); Dkt. No. 104-2, pg. 29 (Pg. ID 2362). Lastly,
Defendant contends that White only assisted the
inspections at KCAP for one week, and he had to
work the day shift in order for Gilley to train him.
Dkt. No. 104, pgs. 12-13 (Pg. ID 2246-47); Dkt. No.
104- 4, pg. 54 (Pg. ID 2460).
Count
II
of Plaintiffs
complaint
is
fundamentally a claim of disparate treatment.
Disparate treatments requires a plaintiff to
demonstrate that an employer has treated him less

24a
favorably than others due to a protected trait, such
as race or national origin. Dunlap v. Tenn. Valley
Auth., 519 F.3d 626, 630 (6th Cir. 2008). Courts
analyze
alleged
discrimination
under
the
McDonnell-Douglas framework. Id. Under the
framework, (l) the plaintiff must establish a prima
facie case of racial discrimination,' (2) the employer
must articulate some legitimate, nondiscriminatory
reason for its actions! and (3) the plaintiff must
prove that the stated reason was in fact
pretextual.” Id. A plaintiff can establish a prima
facie case of discrimination by showing “(l) that he
is a member of a protected group, (2) that he was
qualified for the position at issue, and (3) that he
was treated differently than comparable employees
outside of the protected class.” Id.
Proof of discriminatory motive is critical under
a disparate treatment theory. Id. Discriminatory
motive can be inferred from the fact that there was
a difference in treatment, or “from the falsity of the
employer’s explanation for the treatment.” Id.
Plaintiff establishes that he is a member of a
protected group, that he was qualified for his job
position, and that Defendant required him to work
the night shift while his white counterparts worked
the day shift. However, Defendant articulates
nondiscriminatory reasons that Urban and White
worked the night shift. Urban was responsible for
overseeing operations at a plant in the Czech
Republic with a 7 or 8 hour time difference between
the KCAP plant. White needed Gilley to train him,
and Gilley worked during the day! therefore White

25a
was required to work the day shift with Gilley.
Plaintiff does not bring forth evidence to establish
that Defendant’s reasons are pretext. Plaintiff has
therefore failed to meet his burden of production to
establish a claim of disparate treatment. Therefore,
this Court will grant Defendant’s Motion for
Summary Judgment on Count II of Plaintiffs
complaint.
3. Retaliation
Count Three alleges retaliation. Dkt. No. 35-1,
pg. 16 (Pg. ID 306). Plaintiff alleges that Defendant
placed him in a hostile work environment as a form
of retaliation. Id. atpg. 17 (Pg. ID 307).
To establish a prima facie case of retaliation, a
plaintiff must demonstrate that (l) [he]
engaged in activity protected by Title VIP (2)
the defendant knew of [his] exercise of her
protected
rights;
(3)
the
defendant
subsequently took an adverse employment
action against the plaintiff or subjected the
plaintiff to severe or pervasive retaliatory
harassment; and (4) there was a causal
connection between the plaintiff's protected
activity and the adverse employment action.
Barrett v. Whirlpool Corp., 556 F.3d 502, 516 (6th
Cir. 2009). Plaintiff asserts that the protected
activity he engaged in was reporting the racial
discrimination and disparate treatment that he
faced at KCAP to Leon Koua, Jaime Fisk, Andrew
Bayley, and Adrian Aguayo. Dkt. No. 120, pg. 30

26a
(Pg. ID 5605). He states that after he reported the
activity, Koua told him to follow Gilley’s
instructions and to lie low. Id. Plaintiff states that
he was continuously demeaned, harassed, left to
work without lunch, and treated disparately as a
result of having to listen to Gilley. Id.
First, the record does not demonstrate that
Defendant subjected Plaintiff to severe or pervasive
retaliatory harassment. Plaintiff states that Gilley
berated him for not driving a Ford and for not
having a safety vest and goggles. Dkt. No. 35-1, pg.
19 (Pg. ID 309). However, the record does not
establish that this treatment was severe or
pervasive. Further, according to Plaintiffs own
statement, he went without lunch on one occasion.
Dkt. No. 120, pgs. 11-12, (Pg. ID 5586-87). This
treatment also does not rise to the severe or
pervasive level. For these reasons and for the
reasons stated infra, this Court finds that the
record does not establish that Defendant retaliated
against Plaintiff. Summary Judgment is granted in
favor of Defendant on Count III.
4. Harassment/Hostile Work Environment
The fourth count of the complaint alleges
harassment. Dkt. No. 35-1, pg. 18 (Pg. ID 308).
Plaintiff more specifically alleges hostile work
environment in Count III of his complaint and in
his response to Plaintiffs Motion for Summary
Judgment. Id. at pg. 17 (Pg. ID 307); Dkt. No. 120,
pg. 19 (Pg. ID 5594). Plaintiff alleges that when he

27a
arrived at the KCAP plant, Dawayne Gilley began
to complain that Plaintiff had parked in the wrong
parking lot and that he was not driving a Ford
vehicle. Id. at pg. 19 (Pg. ID 309). Gilley then began
shouting at Plaintiff, telling him that he was “doing
everything wrong” after Gilley realized that
Plaintiff did not have a safety vest and goggles. Id.
Plaintiff alleges before that point, no one ever told
him that he needed a safety vest and goggles. Id.
The complaint next states that one day Gilley
asked Plaintiff if he had acquired a Ford vehicle
yet. Id. at pg. 20 (Pg. ID 311). Plaintiff informed
Gilley that the rental company did not have a Ford
vehicle available, and Gilley began to shout at
Plaintiff and said that he must get a Ford vehicle
that day. Id. at pg. 21 (Pg. ID 311). Gilley then
accompanied Plaintiff to get a Ford vehicle. Id. at
pgs. 21-22 (Pg. ID 311-12).
Plaintiffs response to Defendant’s Motion also
alleges that in November of 2015, Gilley offered to
get lunch for Radim Urban and Plaintiff. Dkt. No.
120, pg. 11 (Pg. ID 5586). Plaintiff states that
Gilley brought Plaintiff a lunch that was “spilled”
and contained ham! Plaintiff does not eat ham. Id.
at pgs. 11-12, (Pg. ID 5586-87). Plaintiff’s response
next asserts that Gilley berated him by telling him
not to talk to anybody, and just to conduct
inspections. Id. at pg. 12 (Pg. ID 5587). Plaintiff
lastly alleges that in November of 2015 Gilley made
an accusation of theft against him. Id.
Courts analyze discriminatory harassment
under the hostile work environment standard. See

28a
Barrett v. Whirlpool Corp., 556 F.3d 502, 514 (6th
Cir. 2009).
To establish a prima facie case of a racially
hostile work environment, a plaintiff must
demonstrate that (l) [he] was a member of a
protected class; (2) [he] was subjected to
unwelcome racial harassment;
(3)
the
harassment was based on race; (4) the
harassment unreasonably interfered with [his]
work performance by creating an intimidating,
hostile, or offensive work environment; and (5)
the employer is liable.
Barrett, 556 F.3d at 515. A hostile work
environment is one that is “permeated with
discriminatory intimidation, ridicule, and insult
that is sufficiently severe or pervasive to alter the
conditions of the victim's employment and create
an abusive working environment.” Id. at 514.
Assessment of the fourth prong requires an
examination of the totality of the circumstances. Id.
at 515. Courts consider the frequency of the
discriminatory conduct, the severity of the conduct,
if the conduct was physically threatening or
humiliating, if the conduct was merely an offensive
utterance, and whether the conduct “unreasonably
interfere[d] with an employee’s work performance.”
Id.
Plaintiff has established that he is a member of
a protected class. However, Plaintiff has not proved
the other prongs of the prima facie case of hostile
work environment. Nothing in the record, either

29a
direct or circumstantial, supports the proposition
that Gilley’s treatment of Plaintiff was because of
Plaintiffs race or national origin. Further, Plaintiff
does not establish that any adverse treatment
unreasonably interfered with his work. In contrast,
Plaintiff asserts throughout his pleadings that he
was an exemplary worker. See Dkt. No. 35-1, pg.
15, 27 (Pg. ID 305, 317); Dkt. No. 104*16, pgs. 3-4
(Pg. ID 2623-24). For these reasons, the Court will
grant summary judgment in favor of Defendant on
Plaintiff s Count IV.
5. Negligence
The fifth cause of action alleges negligence.
Dkt. No. 35-1, pg. 24 (Pg. ID 314). Plaintiff alleges
that Defendant was negligent in investigating the
grievances that Plaintiff placed and also negligent
in failing to reasonably supervise the Continental
Resident staff at KCAP. Id. at pgs. 24—26 (Pg. ID
314-16). Defendant asserts that Plaintiff did not
complain of discrimination until he filed his
complaint with the EEOC. Dkt. No 119, pg. 2 (Pg.
ID 5473).
To establish a prima facie case of negligence, a
plaintiff must prove: “(l) a duty owed by the
defendant to the plaintiff, (2) a breach of that duty,
(3) causation, and (4) damages.” Finazzo v. Fire
Equip. Co., 918 N.W.2d 200, 210 (Mich. Ct. App.
2018).
Continental has a written policy prohibiting
discrimination based on race or national origin.

30a
Dkt. No. 104-1, pg. 7 (Pg. ID 2273). Jaime Fisk, the
Human Resources Coordinator, testified under oath
that complaints of discrimination based on race or
national origin are investigated. Id. at pg. 8 (Pg. ID
22774). Leon Koua similarly testified that it was
custom for harassment complaints to be reported to
Human Resources and investigated. Dkt. No. 10415, pgs. 3-5 (Pg. ID 2618—20). On December 17,
2015, Plaintiff wrote an email to Adrian Aguayo
and Leon Koua about his removal from the KCAP
plant. Dkt. No. 104-16, pgs. 3-4 (Pg. ID 2623-24).
The letter described that he was unsure why he
was removed from the plant because he always did
what was required of him. Id. The letter does not
mention discrimination as a reason for why
Plaintiff believed he was removed. Id. Adrian
Millan also testified that Plaintiff never informed
him that Dawayne Gilley treated him differently
because of his race. Dkt. No. 104-6, pg. 19 (Pg. ID
2504).
Plaintiffs complaint states that he informed
Jaime Fisk and Andrew Bayley, his manager,
about disparate treatment, harassment, and
discrimination that he received from Gilley. Dkt.
No. 35-1, pg. 25 (Pg. ID 315). Plaintiff alleges that
Leon Koua “promised” to investigate the issue, but
never did. Id. Plaintiff also asserts that he told
Adrian Aguayo about the discrimination. Id.
Aguayo told Plaintiff to send him his concerns via
email, which Plaintiff did without response from
Aguayo. Id. Plaintiff also maintains that he
brought his discrimination complaints to Human

31a
Resources, and the department likewise failed to
investigate his complaints. Id. Plaintiffs response
to Defendant’s summary judgment motion states
the Koua failed to address his complaint of
discrimination and did not report it to HR. Dkt. No.
120, pg. 30 (Pg. ID 5605). However, Plaintiffs
citations to the record do not point to any objective
evidence of Plaintiffs claims. See id.
Plaintiffs response also re-states that Aguayo
asked him to send an email with his complaints of
discrimination to which Plaintiff never received a
response. Id. at pg. 32 9Pg. Id 5607). However,
Plaintiff does not cite to any evidence in the record
to support this claim.
“[District courts [are] not required to accept
unsupported, self-serving testimony as evidence
sufficient to create a jury question. Brooks v. Am.
Broad. Companies, Inc., 999 F.2d 167, 172 (6th Cir.
1993). Here, Plaintiff alleges that he informed Fisk,
Bayley, Koua, and Aguayo that Gilley subjected
him to discrimination. However, nothing in the
record supports this claim, except for Plaintiffs
subjective testimony. Further, evidence in the
record supports the conclusion that Plaintiff did not
complain about racial or national origin
discrimination until he filed his EEOC complaint.
No evidence suggests that Defendant breached its
duty to investigate claims of discrimination.
Plaintiff also alleges that Defendant was
negligent in failing to supervise its staff at KCAP.
However, Plaintiff cannot establish that Defendant

32a
breached its duty to supervise because the evidence
does not support Plaintiffs discrimination
allegations. See Section 2, Unequal Terms, supra.
For these reasons, the Court will grant
summary judgment in favor of Defendant on Count
V of Plaintiffs complaint.
6. Implied Contract
Count Six of Plaintiffs complaint alleges
breach of implied contract. Dkt. No. 35'1, pg. 27
(Pg. ID 317). Plaintiff alleges that KCAP was a
temporary project and that it was implied that his
regular job at Continental would continue at the
termination of the KCAP project. Id. Plaintiff
asserts that he was in charge of at least one other
project for Continental with a third-party company
and that he had interviewed for other positions at
Continental in Germany. Id. The complaint also
states that one of Plaintiff s supervisors told him he
was doing a “good job” at KCAP, which also
presents evidence that an implied contract existed
between the parties. Id.
A contract may be implied where (l) “there is a
receipt of a benefit by a defendant from a plaintiff’;
and (2) “retention of the benefits is inequitable,
absent
reasonable
compensation.”
DaimlerChrysler Servs. N. Am., LLC v. Summit Nat., Inc.,
289 F. App’x 916, 925 (6th Cir. 2008). Part of the
rationale for implying a contract-in-law is to
prevent unjust enrichment. Id.
Plaintiff presents no evidence and the record

33a
does not demonstrate the existence of an implied
contract between the parties. Plaintiff was
Defendant’s at-will employee. Dkt. No. 199, pg. 5
(Pg. ID 5476). Plaintiff does not present evidence in
the record to establish an inequitable relationship
existed in which Defendant was unjustly enriched.
For these reasons, the Court will grant summary
judgment in favor of Defendant on Count VI of
Plaintiffs complaint.
7. Denial of Due Process
The last count of Plaintiffs complaint alleges
that Defendant denied him due process by not
following the internal rules and policies in
investigating
Plaintiff s
complaints
of
discrimination. Dkt. No. 35-1, pg. 28 (Pg. ID 318).
Plaintiff also asserts a denial of due process
because Defendant terminated him “with cause.”
Id. This Court presumes that Count VII alleges
procedural due process violations, considering that
Plaintiffs complaint alleges grievance procedure
violations and that Defendant failed to afford him
“due process” before firing him. Id.
First, Plaintiff asserts that Defendant denied
him due process by not properly investigating his
complaints of discrimination. To establish a
procedural due process claim, a plaintiff must
demonstrate that: (i) he had a life, liberty, or
property interest protected by the Due Process
Clause; (2) he was deprived of this interest; and (3)
the state did not provide him with adequate

34a
procedural rights before depriving him of the
property interest. Crawford v. Benzie-Leenanau
Diet. Health Dep’t Bd. ofHealth, 636 F. App’x 261,
266 (6th Cir. 2016) (emphasis added).
First, Plaintiffs employment was at-will and
the record does not establish that he had a property
interest in his employment. Second, Plaintiffs
employment was not with the government. For
these reasons, Plaintiff cannot sustain a procedural
due process violation. Further, the record does not
support Plaintiffs allegations that he complained
to Defendant about Gilley’s discrimination. See
Section 5, Negligence, supra.
The second part of Count VII alleges a violation
of due process because Defendant terminated him
“with cause.” However, Plaintiff was not a
government employee! he was an at-will employee
who could be terminated at any time for lawful
reason. Dkt. No. 199, pg. 5 (Pg. ID 5476). Plaintiff
does not dispute nor does he present evidence that
his employment was not at-will. As such, he had no
due process right in his employment. Gregory v.
Hunt, 24F.3d 781, 785 (6th Cir. 1994) (an at-will
public employee does not have a property interest
in continued employment”) (emphasis added).
Plaintiff cannot establish that he filed
discrimination grievances against Dawayne Gilley
or that he had a property interest in his continued
employment. Defendant is therefore entitled to
summary judgment on Count VII of Plaintiffs
complaint.

35a
V. CONCLUSION
For the reasons discussed herein, the Court
will grant Defendant’s Motion.
SO ORDERED.
Dated: March 26, 2019
s/Gershwin A. Drain
HON. GERSHWIN A. DRAIN
United States District Court Judge

36a

STATUTES INVOLVED
(“Title VII”), provides in pertinent part: “It shall be
an unlawful employment practice for an employer
(l) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of
such individual's race, color, religion, sex, or
national origin; or (2) to limit, segregate, or classify
his employees or applicants for employment in any
way which would deprive or tend to deprive any
individual of employment opportunities or
otherwise adversely affect his status as an
employee, because of such individual's race, color,
religion, sex[,] or national origin”
Title VII's anti-retaliation provision in Section
704(a), 42 U.S.C. § 2000e-3(a) (1982) provides:
“Its full text states as follows: It shall be an
unlawful employment practice for an employer to
discriminate against any of his employees or
applicants for employment, for an employment
agency, or joint labor-management committee
controlling apprenticeship or other training or
retraining, including on-the-job programs, to
discriminate against any individual, or for a labor
organization to discriminate against any member
thereof or applicant for membership, because he
has opposed any practice made an unlawful
employment practice by this subchapter, or because
he has made a charge, testified, assisted, or
participated in any manner in an investigation,

37a
proceeding, or hearing under this subchapter”
42 U.S.C. § 2000e-2(m) provides in pertinent part
that “[e]xcept as otherwise provided in this
subchapter, an unlawful employment practice is
established
when
the
complaining
party
demonstrates that [a protected classification] was a
motivating factor for any employment practice,
even though other factors also motivated the
practice

